                                                      U.S. Department of Justice


                                                      United States Attorney
                                                      District of Maryland


Rod J. Rosenstein                                     36 S. Charles Street                            410-209-4800
United States Attorney                                Fourth Floor                          TTY/TDD:410-962-4462
                                                      Baltimore, Maryland 21201-2692                  410-209-4885
Vickie E. LeDuc                                                                                   FAX 410-962-3091
Public Information Officer                                                                  Vickie.LeDuc@usdoj.gov


September 10, 2008
FOR IMMEDIATE RELEASE                                 CONTACT AUSA VICKIE E. LEDUC or
http://www.usdoj.gov/usao/md                          MARCIA MURPHY at (410) 209-4885

  ELKTON MAN CHARGED WITH USING STOLEN GSA CREDIT CARDS TO BUY
                          GASOLINE

        Baltimore, Maryland - Richard B. Eldreth, age 41, of Elkton, Maryland was charged by
complaint today with stealing government property in connection with the unauthorized
purchases of fuel using stolen U.S. General Services Administration (GSA) credit cards,
announced United States Attorney for the District of Maryland Rod J. Rosenstein. Eldreth was
arrested late yesterday and had his initial appearance in federal district court at 3:00 p.m. today.

       “This was just an outright theft of federal property,” said U.S. Attorney Rod J.
Rosenstein. “Richard Eldreth allegedly used stolen GSA credit cards hundreds of times to
purchase more than $58,000 worth of fuel at gas stations.”

        GSA pays fuel bills and maintenance costs for vehicles leased to federal agencies and
quasi-federal agencies, including the National Railroad Passenger Corporation (Amtrak). Each
government vehicle is assigned a GSA Voyager Fleet Credit Card to purchase gas and
maintenance for the vehicle. According to the affidavit supporting the complaint, eight GSA
credit cards assigned to Amtrak vehicles in Delaware and Maryland have been used to make
fraudulent purchases. Five of the eight credit cards were reported stolen or lost. From June 23
to August 31, 2008, about $58,253 in fraudulent fuel purchases have been made with these cards
at gas stations in the vicinities of Elkton, Maryland; Wilmington, Delaware; and Newark,
Delaware. Many of these purchases were for quantities of fuel which exceed the tank capacity
of, and for types of fuel not associated with, the vehicles to which the credit cards were assigned.
One of the credit cards was used 100 times during this two month period to purchase a total of
$17,711.67 in fuel.

        The affidavit further alleges that on August 12 and 19, 2008, GSA agents observed
Eldreth use a credit card at a gas station in Elkton to fuel five pick-up trucks and several 50
gallon containers located in the trucks’ flatbeds. Two of these vehicles were observed parked at
his residence. Receipts for the fuel purchases retrieved after Eldreth left the gas station indicated
that two GSA credit card which had been previously reported as stolen from Amtrak were used
to purchase the fuel.

       Eldreth faces a maximum sentence of 10 years in prison and a fine of $250,000. A
preliminary hearing is scheduled for September 30, 2008.
       A complaint is not a finding of guilt. An individual charged by complaint is presumed
innocent unless and until proven guilty at some later criminal proceedings.

       United States Attorney Rod J. Rosenstein thanked the GSA - Office of Inspector General
and the Amtrak - Office of Inspector General for their investigative work. Mr. Rosenstein also
thanked the Cecil County Sheriff’s Department, the Elkton Police Department and the Maryland
Department of Environmental Protection for their assistance. Mr. Rosenstein commended
Assistant United States Attorney Jonathan Biran, who is prosecuting the case.
